Marc E.Elias

November 13, 2020

MElias@perkinscoie.com
D. +1.202.434.1609
F. +1.202.654.9126

VIA E-FILING AND E-SERVICE

The Honorable Scott S. Harris
Clerk of the Court
United States Supreme Court
One First Street NE
Washington, DC 20543
sharris@supremecourt.gov
Re:

Brnovich, et al. v. Democratic National Committee, et al., No. 19-1257

Dear Mr. Harris:
As counsel of record for Respondent Democratic National Committee, et al., in Brnovich,
et al. v. Democratic National Committee, et al., No. 19-1257, and Arizona Republican Party, et al.
v. Democratic National Committee, et al., No. 19-1258, I am writing to grant blanket consent to
the filing of a brief amicus curiae by any person or entity, provided that it is filed within the time
allowed by the rules of this Court. This consent applies without regard to the position taken or the
party being supported.
Very truly yours,
/s/ Marc E. Elias
Marc E. Elias

cc:

Joseph A. Kanefield
Counsel for State Petitioners (by electronic mail)
Michael A Carvin
Counsel for Arizona Republican Party (by electronic mail)
Jessica Ring Amunson
Counsel for Secretary of State Katie Hobbs (by electronic mail)

